No. 20-58

In the Supreme Court of the United States
ANITA SMITH,
Petitioner,
v.

VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

Mark S. Boardman
Counsel of Record
Katherine H. Watkins
BOARDMAN , CARR , PETELOS,
WATKINS & OGLE , P.C.
400 Boardman Drive
Chelsea, AL 35043
(205) 678-8000
mboardman@boardmancarr.com
khortberg@boardmancarr.com
Counsel for Respondent
September 23, 2020

i

RESTATEMENT OF QUESTIONS PRESENTED
Petitioner Anita Smith, in identifying the questions presented, states that
“[n]early thirty years ago, Congress replaced Title VII’s but-for causation standard
with the ‘more forgiving’ motivating factor standard.” Pet. i. However, in Bostock v.
Clayton Co., Ga.,this Court made clear that the but-for causation standard remains a
viable path to relief under Title VII:
[B]ecause nothing in our analysis depends on the motivating factor test,
we focus on the more traditional but-for causation standard that
continues to afford a viable, if no longer exclusive, path to relief under
Title VII. 42 U.S.C. § 2000e- 2(a)(1).
Bostock v. Clayton Co., Ga., 590 U.S. __, 140 S. Ct. 1731, 1740 (2020).
In the present case, the District Court and the Eleventh Circuit correctly focused
on the “more traditional but-for causation standard” in analyzing Smith’s race and age
discrimination claims. Those courts found – as this Court hypothesized in Bostock –
“Title VII has nothing to say” when “an employer fires a female employee for
tardiness.” Id. at 1742.
Thus, a more accurate statement of the issue involved here is:
Did the Eleventh Circuit err in applying the single motive
standard to a Title VII status-based discrimination claim
after Smith failed to plead or prove the motivating factor
standard in the District Court?

ii
TABLE OF CONTENTS
Page
RESTATEMENT OF QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Cases.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ERRONEOUS STATEMENTS IN SMITH’S
“FACTUAL BACKGROUND”.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR DENYING THE WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
I.

This Petition Presents a Poor Vehicle for Resolving the
Different Standards for Review at the Dispositive Motion
Stage for Title VII Status-Based Discrimination Claims.. . . . . . . . . . . 12

II.

This Case is a Poor Vehicle for Consideration of the
Proper Timing of Pleading the Motivating Factor
Causation Standard. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

CONCLUSION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
APPENDIX
District Court Plaintiff’s Opposition to Defendant’s Motion for
Summary Judgment filed August 8, 2017 (Doc. 68).. . . . . . Respondent’s App. 1

iii
TABLE OF AUTHORITIES
Page(s)
Federal Court Cases
Babb v. Secretary Dept. of Veterans Affairs, 743 Fed. App’x 280 (11th Cir. 2018).. . 14
Bostock v. Clayton Co., Ga., 590 U.S. __, 140 S. Ct. 1731 (2020) . . . . . . . . . . . . . . . . . . i
Cofield v. Alabama Pub. Serv. Comm’n, 936 F.2d 512 (11th Cir. 1991).. . . . . . . . . . . . 7
Cutter v. Wilkinson, 544 U.S. 709 (2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
E.E.O.C. v. TBC Corp., 532 Fed. App’x. 901 (11th Cir. 2013).. . . . . . . . . . . . . . . . . . . . 14
Ferguson v. Moore-McCormack, 352 U.S. 521 (1957). . . . . . . . . . . . . . . . . . . . . . . . . . . 11
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973). . . . . . . . . . . . 2, 10, 11, 12, 13
Quigg v. Thomas Cnty. Sch. Dist., 814 F.3d 1227 (11th Cir. 2016).. . . . . . . . . . . . 12, 13
United States v. Bestfoods, 524 U.S. 51 (1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Williams v. Florida Atlantic University, 728 Fed. Appx. 996 (11th Cir. 2018).. . . . . 14

FEDERAL STATUTES
42 U.S.C. § 2000e-2(m).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 10

STATE STATUTES
Students First Act, Alabama Code § 16-24C-1, et seq. . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTRODUCTION
Respondent Vestavia Hills Board of Education employed Petitioner Anita Smith
for two years. Smith was tardy to work 87% of the time. Given that her desk was the
front desk in the high school’s main office, Smith’s secretarial position required that
her desk be continuously covered during her assigned working hours, 7:00 a.m. to 3:00
p.m. When Smith was late to work, another employee had to cover her desk. After her
employment was not continued (“non-renewed”) for the 2015-16 school year, Smith
applied for another position with the Vestavia Hills Board of Education, at a different
school, but was not interviewed or hired. Neither were 104 other applicants. The
District Court granted summary judgment in the Board’s favor on Smith’s race and age
discrimination claims. The Eleventh Circuit affirmed the District Court’s ruling in a
per curiam, DO NOT PUBLISH opinion.
Smith seeks review of that holding, but her case is not a proper vehicle for
deciding whether a Title VII single motive discrimination claim still exists. Smith, in
her Petition, details an argument on the motivating factor standard issue. Smith
neither detailed nor analyzed the motivating factor standard in her Amended
Complaint or in her opposition to the Board’s Motion for Summary Judgment with the
District Court. Thus, the record is inadequate to review whether the motivating factor
standard has supplanted the single motive standard. This is not the appropriate case
through which the law on employment discrimination claims brought pursuant to
Title VII should be changed.

2
Stated succinctly, the real issues in this appeal are whether the Eleventh Circuit
erred: 1) in holding that Smith failed to plead or prove a mixed-motive case; and 2) in
relying upon the McDonnell Douglas framework to evaluate Smith’s single motive
employment discrimination claim in concluding that the Board was entitled to
summary judgment. The answer to both issues is no.
The record is not sufficient to support an analysis of the questions presented by
Smith. Smith did not embrace any standard other than the single motive standard
which relies upon the McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973),
framework. Smith only vaguely raised the motivating factor causation standard before
the District Court. Three sentences, out of Smith’s forty page opposition brief,1 referred
to the motivating factor causation standard; yet, Smith’s brief contained no analysis
of the motivating factor standard to the alleged facts of this case. Smith’s opposition
brief also failed to assert that Smith was making a mixed-motive claim. Accordingly,
the District Court properly found that Smith relied upon the single motive causation
standard in her opposition. Pet. App. 57 n. 20. Such limited analysis by Smith should
be the demise of her Petition for Writ of Certiorari to this Court.

1

The record is not only scant, but messy. Smith’s attorneys improperly filed a 50 page summary
judgment opposition brief the night it was due, together with a motion to exceed the District Court’s page
limit. (Docs. 42- 43) When the District Court denied the motion for the additional 10 pages (Doc. 47),
Smith’s attorneys then filed a motion for leave to file a revised brief to conform with the District Court’s
Order, with an attached 40 page opposition brief. (Docs. 48- 48-1) When the District Court denied that
motion (Doc. 49), Smith’s attorneys then filed her second motion for leave to file a revised brief, with an
attached 40 page opposition brief (Docs. 50- 50-1) When the Court had not ruled on Smith’s second
motion by the Board’s reply deadline, out of an abundance of caution, the Board filed its reply in
response to Smith’s 50 page opposition brief. (Doc. 58) The District Court subsequently granted Smith’s
second motion for leave to a file a revised brief (Doc. 67), and Smith’s attorneys filed the revised
corrected opposition brief. (Doc. 68) The Board then filed its reply brief to Smith’s revised opposition
brief. (Doc. 78)

3
STATEMENT OF THE CASE
ERRONEOUS STATEMENTS IN SMITH’S “FACTUAL BACKGROUND”
The Board disputes the following “facts” set out by Smith:
1.

Smith incorrectly states that the 2013-14 VHHS office staff consisted of
“approximately eleven secretaries.” Pet. 9.
Smith’s citation to the record does not support this assertion. One of the
individuals included in the number was a teacher, not a secretary, and three
were bookkeepers, not “front desk” secretaries, during the relevant time period.
Doc. 35-12, p. 11, l. 7-9. Of the remaining seven, only two (Smith and Connie
Thomas) were front desk secretaries. Doc. 35-27, p. 2. Smith fails to cite to
evidence in support of her assertion regarding the location of the desks of any
secretary, registrar or bookkeeper at the high school. Pet. 9.

2.

Smith incorrectly states that “Smith had a desk inside the main office, where
she assisted the registrar. App. 41.” Pet. 9.
The cited page does not support this fact. Instead, the District Court relied upon
the fact that “the plaintiff sat at the front desk of the main office and handled
all of the other duties associated with a receptionist at a regular business office.”
Pet. App. 41.

3.

Smith incorrectly states that:
Loveless [the school principal] believed that several teachers
and staff members had a tendency to arrive late to work.
(Doc. 35-14:20:3-23) To address his concern, Loveless held
a meeting with all faculty and staff in August 2014 where
he informed them that they were all expected to arrive at

4
work on time, every day. Doc. 35-27, pp. 1-2. He stressed
that it was “very important” that every employee, without
exception, be at the school on time. Doc. 35-14:36:23-37:5.
Pet. 10.
The undisputed evidence shows that Principal Loveless reviewed the time sheets
of the five Board employees, including Smith, whom he identified in September
2014 as having tardiness issues, every other month during the school year.
Doc. 35-14, p. 24, l. 18- p. 25, l. 13. The August 2014 faculty and staff meeting
occurred before Principal Loveless identified any employee as having tardiness
issues. There is no evidence in the record that Principal Loveless stressed to the
VHHS faculty and staff that every employee be at the school on time “without
exception.” Smith also fails to cite to any evidence to support her assertion that
“[d]uring that meeting, Loveless did not identify any exceptions to that rule or
any particular position as being more important than any other.” Pet. 10.
4.

Smith incorrectly states that “[w]hile the district court found that Towns was
helping her chronically ill father and would ‘clear’ her tardiness with her
supervisor if she knew ahead of time, App. 50, Loveless did not testify that her
father’s condition played any role in his judgment.” Pet. 11 n.3.
Smith ignores the undisputed testimony that, unlike Smith, Towns’s immediate
supervisor was the head of the guidance department at the high school, Daria
Howard, not Principal Loveless. Doc. 35-29, p. 1. Furthermore, in the opinion
of Principal Loveless, the two most important positions in the front office of
VHHS were the ones held by Smith and Connie Thomas because they were the

5
first Board employees that visitors encountered at the school. Doc. 35-14, p. 36,
l. 6-16. Ms. Thomas and Smith each staffed a “front desk.” Doc. 35-27, p. 2.
Ms. Towns’s desk in the guidance department did not need to be covered at all
times, unlike the desks of the front office secretary (Smith) or the student
attendance clerk (Ms. Thomas). Doc. 35-29, p. 1.
5.

Smith incorrectly states that “[t]he district court made two separate, but
inconsistent, findings of fact with regard to Hicks’s required work hours. The
court found that “Hicks was supposed to be at work between 7:00 a.m. and
3:00 p.m.,” App. 50, but also that, “one week after [Hicks] started...[her] hours
changed...to 7:20 a.m. – 3:20 p.m., and stayed that way for the remainder of the
2014-15 school year.” App. 45.” Pet. 12 n. 4.
The findings of the District Court were consistent. The District Court correctly
concluded, as such conclusion was supported by undisputed evidence, that
Hicks’s original work hours were 7:00 a.m. to 3:00 p.m., but after one week, her
hours were changed to 7:20 a.m. to 3:20 p.m. Doc. 35-28, pp. 2-3.

6.

Smith incorrectly states that “Between April 28 and May 19 (the date Smith was
terminated, App. 51), Smith arrived early on some dates and late on others.
Doc. 69-7.” Pet. 13.
The undisputed evidence shows that Smith was tardy to work ten out of thirteen
days between April 28, 2015 and May 19, 2015. Doc. 35-27, p. 5. Importantly,
Principal Loveless noted punctuality as an area in need of improvement on
Smith’s April 27, 2015 evaluation, which Smith acknowledged as an area which

6
needed improvement during the meeting to review her evaluation. Doc. 35-2,
p. 46, l. 15-20; Doc. 35-5, p. 2.
7.

Smith insinuates an improper purpose in Principal Loveless’s response that the
Board did not have to provide a reason for the termination of a probationary
classified employee, like Smith. Pet. 13. Alabama’s Students First Act, Ala. Code
§ 16-24C-1, et seq., does not require boards of education to give a reason for the
termination of the employment of a probationary classified employee. Smith
was a probationary classified employee in May 2015. In Alabama, school
districts hire public education employees for the academic year. Alabama law
provides tenure (also called non-probationary or continuing service status) to
public education employees, even secretaries, after three years of employment.
Alabama Code § 16-24C-4(2). Rather than allow Smith to obtain tenure, the
Board chose not to re-hire her for her tenure year. Docs. 35-14, p. 19, l. 9-15; 3527, p. 6.

8.

Smith incorrectly states that “Loveless recommended that Towns, who he
considered to have a significant number of tardies for the school year, become
a tenured staff person, and that Hicks be hired full-time to fill Smith’s position.
Doc. 35-24:47:17-48:15; Doc. 35-14:50:20-22. The Board accepted Loveless’s
recommendations. Doc. 52.” Pet. 14.
The undisputed evidence shows that Principal Loveless was replaced as VHHS
principal by Tyler Burgess, who handled all employment recommendations for
open positions, including recommending that Hicks be hired by the Board for the

7
open secretary/registrar position, in May 2015. Doc. 35-27, p. 2. The
superintendent approved of Principal Burgess’s recommendations and made the
same recommendations to the Board. Doc. 35-23, pp. 2-3
9.

Smith neglects to inform this Court that Principal Loveless was not alone in
thinking that Smith and Connie Thomas’s desks were the two most important
positions in the front office. Pet. 14. Smith herself also testified that her desk
and Connie Thomas’s desk “are the main desks that would need to be covered
at all times.” Doc. 35-1, p. 87, l. 2-16.

10.

Smith’s footnote 6 concerning Principal Loveless’s reference to Smith as
“Ms. Anita” cites to a radio news show (NPR) concerning “the practice of
referring to African-American individuals by their first names.” Pet. 14 n. 6.
As determined by the District Court, such a citation is due to be excluded as
inadmissable hearsay:
Facts set out in law review articles and informal websites
(as opposed to official government websites) are similar to
facts set out in newspapers. As such, they are inadmissible
hearsay and not subject, without more, to any exception,
including judicial notice. See Cofield v. Alabama Pub. Serv.
Comm’n, 936 F.2d 512, 517 (11th Cir. 1991). (“That a
statement of fact appears in a daily newspaper does not of
itself establish that the stated fact is ‘capable of accurate
and ready determination by resort to sources whose
accuracy cannot reasonably be questioned.’ Fed. R. Civ. P.
201(b)(2). Consistent with Cofield and the authority cited by
Defendant, these documents will be excluded.”
Pet. App. 31.

8
11.

Smith attempts to discredit Principal Loveless’s opinion that Smith would be
one of the first employees a visitor would encounter at the school by citing to
testimony regarding the location of her desk in the main office. Pet. 14 n.7. Yet,
Smith ignores the extensive testimony provided by Principal Loveless to support
his opinion:
Ms. Smith’s front desk duties involved all of the other duties
inherent to a receptionist at a regular business office. All
calls to the main school number were routed through
Ms. Smith’s direct line to the phone on her desk. Ms. Smith
was expected to assist those callers herself or forward their
calls to a Board employee who could help them. Ms. Smith
handled a majority of the student or parent requests for
transcripts, student records, certifications or other
documents from the school. She also coordinated deliveries
and pick ups from vendors. Ms. Smith assisted Margie
Nelson, the [Vestavia Hills High School] registrar, with
some aspects of new student registration and withdrawal.
While a wall and door separate Ms. Smith’s desk from the
lobby, a majority of the faculty, staff and administrators
passed by Ms. Smith’s desk in the front office. I expected her
to greet them. Further, when any administrator or front
office employee had a visitor in the building, the visitor was
typically seated in the waiting area immediately in front of
Ms. Smith’s desk. Ms. Smith also started the coffee maker
for the front office in the mornings. During the school years
in question, [Vestavia Hills High School] held “early bird”
classes, which started at 7:20 or 7:25 a.m. Thus, many times
students or those faculty members teaching the early bird
classes were in the building by 7:00 a.m. Also, parents who
worked would stop by the school as early as 7:00 a.m.
requesting assistance in some fashion.
Doc. 35-27, pp. 2-3.

12.

Smith incorrectly asserts that she held the registrar position at the high school.
Pet. 15. Margie Nelson was employed as the high school registrar during the

9
relevant time, and Smith only assisted her with some of the registrar duties.
Doc. 35-13, p. 8, l. 1-3; p. 46, l. 12-17; p. 47, l. 18- p. 48, l. 3.
13.

Smith’s assertions that Missy Johnson did not meet the minimum requirements
for the registrar position at another Board school and had no registrar
experience are without evidentiary support. Pet. 15.
Instead, the evidence shows that Missy Johnson met the qualifications to apply
for the open registrar position at the other school. The minimum qualifications,
as stated on the job posting, are a high school diploma and at least two years’
experience in an administrative office, preferably in an educational
environment. Doc. 35-21, pp. 1-2. Missy Johnson held both bachelor’s and
master’s degrees (which exceed the high school diploma possessed by Smith).
Doc. 35-1, p. 20, l. 14 - p. 21, l. 18; Doc. 35-20, p. 2; Doc. 35-22, p. 23. Missy
Johnson was employed at the University of Alabama at Birmingham for five
years as a research assistant in a professor/ cardiologist’s office, and at Career
Personnel Services for one year (which exceeds the qualification of two years’
experience in an office). Doc. 35-22, p. 25-26; Doc. 35-20, pp. 2-3.

14.

Contrary to Smith’s assertion on page 15 of her Petition, the Board provided a
comprehensive explanation as to why Missy Johnson was interviewed, while
Smith and 104 other applicants were not. Doc. 35-20. The evidence is
undisputed that the Board did not have policies dictating how a Principal selects
applicants to be interviewed for non-certified positions or mandating which
applicant should be recommended for open positions at each school. Id. at 3. The

10
Principal was provided no instructions on selecting applicants to interview or
recommend for hiring for an open position to be filled by a non-certified
employee, like the registrar position. Id. The Principal interviewed Johnson
because he saw her volunteering at the school when her child was enrolled and
he had received very positive feedback from the office staff and others about
Johnson’s positive attitude while volunteering. Id. at 2.
PROCEDURAL HISTORY
While Smith stated in her District Court response to the Board’s Motion for
Summary Judgment that, “as a result of the 1991 amendments to Title VII, her
Title VII claims should be analyzed using the motivating factor causation standard
found in 42 U.S.C. § 2000e-2(m)” (Pet. 17), Smith never analyzed the alleged facts
using that causation standard. Smith, thus, contrary to her Petition, never in any
detail “argued that, as a result of the 1991 amendments to Title VII, her Title VII
claims should be analyzed using the motivating factor causation standard found in 42
U.S.C. § 2000e-2(m).” Pet. 17. (underlining added).
The District Court did not apply the “mixed-motive theory,” or the motivating
factor causation standard, because Smith failed to plead it in her Amended Complaint
and did not argue that standard or theory in her summary judgment response brief.
Accordingly, the District Court properly held that Smith “failed to present any evidence
of discriminatory animus other than that contemplated by [the McDonnell- Douglas]
framework.” Pet. App. 56-57. The District Court further held that “despite challenging
the validity of the McDonnell Douglas framework, Plaintiff then relies on that

11
framework to show that she has established a legally sufficient prima facie case.” Id.
at 57 n. 29.
REASONS FOR DENYING THE WRIT
Smith’s Petition for Writ of Certiorari warrants denial as the Petition is replete
with unsupported factual allegations and asks this Court to analyze those allegations
using a standard which Smith never applied at the District Court level. Smith’s
Petition fails to present compelling reasons as to why it should be granted. Certiorari
jurisdiction is “a jurisdiction to be exercised sparingly, and only in cases of peculiar
gravity and general importance, or in order to secure uniformity of decision.” Ferguson
v. Moore-McCormack, 352 U.S. 521 (1957).
The Petition fails to meet the standard criteria for certiorari. Smith urges review
of a non-precedential Eleventh Circuit decision which properly applied this Court’s
precedent. Neither of the questions presented by Smith provides a compelling reason
for this Court to exercise its discretion and accept the Petition.
Smith asks this Court to clarify whether the standard for the analysis of
motivating factor discrimination claims replaces the standard for analysis of single
motive claims applying the McDonnell Douglas framework. Smith failed to properly
raise this issue in the District Court. Further, the Eleventh Circuit already applies
what Smith advocates and has considered the appropriate causation standard
applicable to mixed-motive cases. Smith’s case is far from the ideal scenario for
resolving this question. The Court should deny certiorari.

12
I.

This Petition Presents a Poor Vehicle for Resolving the Different
Standards for Review at the Dispositive Motion Stage for Title VII
Status-Based Discrimination Claims.
Smith did not preserve the issue for review. Smith did not mention mixed-motive

in her Amended Complaint. Doc. 21. Smith only vaguely mentioned the motivating
factor causation standard in the following three sentences in her forty page summary
judgment opposition brief at the District Court:
Title VII was amended in 1991. Today, “an unlawful employment practice
is established when the complaining party demonstrates that race... was
a motivating factor for any employment practice, even though other
factors also motivated the practice.” 42 § 2000e-2(m). This change to
Title VII has had far-reaching implications on the substantive law,
particularly with regard to the continuing viability of the McDonnell
Douglas paradigm for assessing evidence. See,[sic] Quigg v. Thomas Cnty.
Sch. Dist., 814 F.3d 1227 (11th Cir. 2016).
Doc. 68, pp. 26-27 (pages 24-25 numbered at the bottom of the original document).
Smith failed to apply the motivating factor causation standard to the alleged facts of
this case in her summary judgment opposition brief. The terms “mixed-motive” and
“single motive” do not appear in a search of Smith’s opposition brief, just as these
words do not appear in the Amended Complaint. The District Court properly held that
the McDonnell Douglas framework “is indeed appropriately applied to [plaintiff’s]
discrimination claims based on the evidence presented in this case.” Pet. App. 57.
(underlining in original). In fact, the District Court noted that the plaintiff relied on
the same McDonnell Douglas framework in her response brief. Id. at 57 n. 20.
At the Eleventh Circuit, Smith argued that there is “only one causation standard
applicable to all Title VII status-based claims,” which is “the motivating factor test.”

13
Pl.’s App. Brief 35. Smith went on to argue, for the first time, that even if two
causation standards exist, hers was a mixed-motive claim. Id. (Claiming “[b]ut even
if the single-motive/mixed motive dichotomy continues to exists [sic], this case is a
mixed-motive case.” (Id.)) The Eleventh Circuit rejected the newly asserted theory by
holding that “the district court properly concluded that Ms. Smith’s claims of racial
discrimination pertaining to her termination proceeded under a single-motive theory,
and thus correctly applied the McDonnell Douglas framework.” Pet. App. 6.
The Eleventh Circuit specifically noted that “a plaintiff cannot make only a
‘passing reference to a mixed-motive theory’ to sufficiently raise the issue.” Pet. App. 7.
The Eleventh Circuit concluded that the District Court’s analysis was proper for two
reasons:
First, Ms. Smith did not plead or prove a mixed-motive case. She does not
suggest that unlawful bias, in addition to other factors, motivated the
adverse actions. Rather, she presents a pretext case and claims that
unlawful bias was the true reason for her termination. See Quigg, 814
F.3d at 1235 (differentiating between mixed-motive and single-motive
cases). Second, we agree with the Board that a single-motive case is not
transformed into a mixed-motive case merely because the employer raises
a legitimate, non-discriminatory reason for its actions. Were the rule as
Ms. Smith construed it, every case would be a mixed-motive case, and the
McDonnell Douglas framework would be irrelevant. Aplee. Br. at 26.
Accordingly, we find that the district court correctly analyzed Ms. Smith’s
case under the single-motive, McDonnell Douglas framework.
Id. The Eleventh Circuit further rejected Smith’s arguments that the 1991
amendments to Title VII did away with the single/mixed motive distinction and the
“motivating factor test” is the proper analytical framework. Id. at 8.

14
The absence of briefing on the motivating factor standard below would
significantly impede the Court’s consideration of the issue, for it would not have the
benefit of arguments tested and refined in lower courts. Cf. United States v. Bestfoods,
524 U.S. 51, 72-73 (1998)(declining to entertain an issue on which the courts below did
not focus); Cutter v. Wilkinson, 544 U.S. 709, 718 n. 7 (2005) (noting “we are a court of
review, not of first view”). Had the motivating factor causation standard been properly
argued and analyzed by Smith earlier in these proceedings, the lower courts would
have had an opportunity to address the standard. The Court would be better served to
wait for a case where the motivating factor standard issue was litigated from the
beginning of the proceedings (or at least raised and addressed at the District Court
dispositive motion stage).
II.

This Case is a Poor Vehicle for Consideration of the Proper Timing of
Pleading the Motivating Factor Causation Standard.
The second of Smith’s questions for the Court’s consideration is “if both

motivating factor and but-for causation standards are available to a Title VII statusbased discrimination claimant, must the claimant specifically plead the motivating
factor standard in her complaint or may she raise it for the first time in response to a
motion for summary judgment?” Pet. i. Yet, the Eleventh Circuit has already answered
Smith’s question in E.E.O.C. v. TBC Corp., 532 Fed. App’x. 901, 902 (11th Cir. 2013),
Babb v. Secretary, Dept. of Veterans Affairs, 743 Fed. App’x 280, 286 (11th Cir. 2018),
reversed and remanded on other grounds, 589 U.S. __, 140 S. Ct. 1168 (2020), and
Williams v. Florida Atlantic University, 728 Fed. Appx. 996, 999 (11th Cir. 2018), which

15
held that a plaintiff does not have to plead a “mixed-motive” theory in the complaint,
but he or she is required to argue that his or her case involved mixed-motives “at some
point in the proceedings” to warrant consideration of the theory. Insofar as Smith is
concerned, Smith is not opposed to these Eleventh Circuit rulings. Pet. 29. Yet, she
seeks certiorari.
Smith incorrectly states the Eleventh Circuit strayed from its holdings in the
above cases, by holding that Smith could not pursue her motivating factor theory
merely because she had not pleaded it. Pet. 29-30. To the contrary, the Eleventh
Circuit held that Smith failed to “plead or prove a mixed- motive case.” Pet. App. 7.
(underlining added). The allegations Smith cites from her Amended Complaint did not
specify that her claims were either mixed-motive or raised pursuant to the motivating
factor standard. Pet. 30. (citing to Doc. 21, ¶¶ 43-45). As previously shown, contrary
to her assertion on page 30 of her Petition, Smith did not make an “argument” for the
application of the motivating factor causation standard to the alleged facts in this case
in her summary judgment opposition brief. Three sentences does not constitute an
“argument.” The Eleventh Circuit noted that “a plaintiff cannot make only a ‘passing
reference to a mixed-motive theory’ to sufficiently raise the issue.” Pet. App. 7. Smith
did not appropriately assert a mixed- motive claim or the motivating factor causation
standard in her First Amended Complaint or argue them in opposition to the Board’s
Motion for Summary Judgment. Thus, the Eleventh Circuit correctly held “Ms. Smith
did not plead or prove a mixed-motive case.” Pet. App. 7. Such was not a “restrictive
ruling” which prohibited Smith from relying on the “relaxed” motivating factor

16
standard. Smith should not be permitted to revive her Title VII claims by detailing a
theory of liability, for the first time, with the appellate court.
Smith’s Petition for Writ of Certiorari warrants denial as it is replete with
unsupported factual assertions and asks this Court to analyze allegations using a
standard which she failed to apply at the District Court level, leaving this Court with
a limited record of the issue on appeal. For these reasons, Smith’s appeal is a poor
vehicle for changing the causation standards applicable to Title VII claims.
CONCLUSION
The Petition should be denied.

Respectfully submitted,

/s/ Mark S. Boardman
Mark S. Boardman
Counsel of Record
Katherine H. Watkins
BOARDMAN , CARR , PETELOS,
WATKINS & OGLE , P.C.
400 Boardman Drive
Chelsea, AL 35043
(205) 678-8000
mboardman@boardmancarr.com
khortberg@boardmancarr.com
Counsel for Respondent

